 Audit Report




Audit of the USITC Financial Statements
for Fiscal Years 1994 and 1993



Report No. IG-01-95




                                      _~Jul:i   '! 99~
                                          Date lssueo
          INSPECfOR GENERAL




          UNITED STATES INTERNATIONAL TRADE COMMISSION

                                       WASHINGTON, D.C. 20436

July 21, 1995




                    AUDIT OF THE USITC FINANCIAL STATEMENTS
                          FOR FISCAI.J YEARS 1994 AND 1993




The Budget and Accounting Procedures Act of 1950 states that agencies must establish and maintain
systems of accounting and reporting that provide for: complete disclosure of the agency's financial
results; adequate financial information for agency management and for formulation and execution of
the budget; and effective control over revenue expenditure, funds, property, and other assets.

In accordance with a Federal requirement that a detailed evaluation of agency financial systems shall
be conducted on a cyclical basis, an audit of the USITC financial statements was conducted. The
objectives ofthis audit were to issue an opinion as to the fairness of the USITC financial statements
for the fiscal years ending September 30, 1994 and 1993, in presenting the financial condition and
results of operations; a statement on the adequacy of internal controls; and a statement on
compliance.

The audit was conducted by Brown & Company in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States. The auditors expressed the
following opinions:

                The statements of financial position of the USITC as of September 30, 1994 and
                1993, present fairly, in all material respects, the financial position of the USITC as of
                September 30, 1994 and 1993, and the results of its operations and its cash flows for
                the years then ended in conformity with generally accepted accounting principles.

                For the items tested, USITC complied in all material respects with the provisions of
                applicable laws and regulations that could have a material effect on the financial
                statements. For the items not tested, nothing came to their attention that caused the
                auditors to believe that USITC had not complied, in all material respects, with such
                provisions.
               No matters involving the internal control structure and its operation were considered
               to be materialweaknesses, although certain suggestions involving the internal control
               structure and its operation are reported in a letter to USITC management.

As a result of their review, the auditors recommended that the Chief of the Finance Division:

               Capitalize all fixed assets in accordance with guidelines set forth in Title 2 under
               "Acquisition Cost of Assets";

               Establish a policy to examine invoices received at fiscal year end for the date of
               receipt of goods or services to determine the appropriate fiscal year in which to
               charge the invoice; and

               Notify Cost Center Managers that they or their designees must sign and forward all
               receiving reports to the Finance Division upon receipt of goods, and that Finance
               personnel will pay only those invoices that have a signed receiving report or a
               certification that the goods or services were received and were satisfactory.

The auditors also recommended that the Property Management Officer follow USITC guidelines in
order to keep an accurate and updated listing of all assigned property.

The Director of the Office of Administration concurred with the findings and recommendations. A
summary of the Director's comments is presented after each finding on pages 17, 18 and 19 of the
report. The Director's comments are presented in their entirety as an attachment to the report.


                                                       l!if~ ;ft~~ifn
                                                    ;;:n~ E. Altenhofen
                                                     Inspector General
                        UNITED STATES
              INTERNATIONAL TRADE COMMISSION

                        Financial Statements

                   September 30, 1994 and 1993

             (With Independent Auditor's Report Thereon)




•IE:::===:===:=====:= BROWN & COMPANY============~
                   UNITED STATES INTERNATIONAL TRADE COMMISSION

                                           Table of Contents




Independent Auditor's Report                                                                       1

Statements of Financial Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       2

Statements of Operations and Cumulative Results of Operations . . . . . . . .                      3

Statements of Cash Flows. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        4

Statements of Reconciliation to Budget . . . . . . . . . . . . . . . . . . . . . . . . .           5

Notes to Financial Statements                                                                      6

Independent Auditor's Report on Compliance . . . . . . . . . . . . . . . . . . . . .              14

Independent Auditor's Report on Internal Control                                                  15

Management Letter . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   17


Attachment - Memorandum from the Acting Director, Office of Administration
             on the Draft Audit Report, dated June 28, 1995
                                                            CERTIFIED PUBLIC ACCOUNTANTS
                                                            AND MANAGEMENT CONSULTANTS


                          BROWN & COMPANY                                                  •




                               Independent Auditor's Report




The Commissioners
United States International Trade Commission

We have audited the accompanying statements of financial position of the United States
International Trade Commission as of September 30, 1994 and 1993, and the related
statements of operations and cumulative results of operations, cash flows, and
reconciliation to budget for the years then ended. These financial statements are the
responsibility of the Commission's management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with generally accepted auditing standards and
Government Auditing Standards, issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audits to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of the United States International Trade Commission as of
September 3D, 1994 and 1993, and the results of its operations and its cash flows for
the years then ended in conformity with generally accepted accounting principles.




Arlington, Va.
April 7, 1995




2300 CLARENDON BLVD • SUITE 1100 • ARLINGTON, VA 22201 • (703) 522-0800 • FAX: (703) 522-0806
                     UNITED STATES INTERNATIONAL TRADE COMMISSION
                               Statements of Financial Position
                               September 30, 1994 and 1993

Assets

Current assets:
      Funds with the U,S. Treasury (Note 2)             $ 10,014,508      $    9,776,470
      Advances and prepayments (Note 2)                        8,720              13,840

             Total current assets                         10,023,228           9,790,310

Furniture, Equipment and Leasehold Improvements:
       Furniture and equipment                             4,903,732           4,691,972
       Equipment under capital lease                         275,945             275,945
       Leasehold improvements                              2,440[674           2,440,674

      Total furniture, equipment and
      leasehold improvements (Notes 2 and 3)               7,620[351           7,408[591

             Total Assets                               $ 17,643[579      $ 17,198[901

Liabilities and Net Position

Current Liabilities:
      Accounts payable                              $        394,931      $    1,076,011
      Accrued payroll and benefits                         1,263,547           1,027,373
      Accrued unfunded annual leave (Notes 2 and 7)        2,185,158           2,122,532
      Funds held in escrow (Notes 2 and 4)                     1,367             136,685
      Deposits payable (Note 2)                                2,305               3,014
      Obligations under capital lease (Note 6)                50,638              46[758

             Total current liabilities                     3,897,946           4,412,373

Long-term liabilities:
      Obligations under capital lease (Note 6)               178[549             229,187

             Total Liabilities                             4,076[495           4,641 ,560

Net Position: (Note 5)
      Unexpended appropriations                            8,352,358           7,533,387
      Invested capital                                     5,206,006           5,010,114
      Cumulative results of operations                         8,720              13,840

             Total Net Position                           13,567,084          12,557,341

             Total Liabilities and Net Position         $ 17[643,579      $ 17,198,901

           The accompanying notes are an integral part of these financial statements.


                                                  2
                   UNITED STATES INTERNATIONAL TRADE COMMISSION
                Statements of Operations and Cumulative Results of Operations
                     For the Years Ended September 30, 1994 and 1993


                                                            1994                1993

Appropriation Expensed                                $ 42,541 ,057      $ 41 ,855,718

Expenses
     Salaries                                            25,216,494         24,766,082
     Personnel benefits                                   4,853,645          4,725,444
     Travel expenses                                        42 i ,535          581,543
     Rental and communications services                   8,609,319          8,609/170
     Printing and reproductions                             145,742            160,456
     Supplies and materials                                 687,401            795/067
     Equipment                                              206,754            295,341
     Other services                                       2.405,287          1,972,422

            Total expenses                               42,546,177         41,905,525

Excess of expenses over appropriations
 expensed                                                     (5,120)           (49,807)

Cumulative results of operations,
beginning of year                                            13,840             63,647

Cumulative results of operations,
end of year                                          $         8,720    $       13,840




          The accompanying notes are an integral part of these financial statements.




                                              3
                    UNITED STATES INTERNATIONAL TRADE COMMISSION
                                   Statements of Cash Flows
                      For the Years ended September 30, 1994 and 1993

                                                              1994               1993
Cash flows from operating activities:

      Appropriations received                           $ 43,500,000       $ 44,852,000
      Appropriations used                                 43,003,444           41,773,767

       Net cash provided by operating activities              496,556           3,078,233

Cash flows from investing activities:

 Purchases of furniture and equipment                         (211 ,760)       (1,319(274)

       Net cash used by investing activities                  (211,760)        (1,319,274)

Cash flows from financing activities:

 Amortization of lease principal                               j46,758)                  -0-

 Net cash used for financing activities                        (46,758)                  -0-

Net increase in obligated funds with U.S. Treasury            238,038           1,758,959
Fund balances with U.S. Treasury, beginning of year         9,776,470           8,017,511

Fund balances with U. S. Treasury, end of year          $   10,014,508     $    9,776,470


Reconciliation of excess of expenses over appropriations
expensed to net cash provided by operating activities

Excess of expenses over appropriations expensed         $       (5,120)    $      (49,807)

Adjustments:

      Unexpended appropriations                               818,971           1,317,657
      Net appropriations used in investing activities         211,760           1,319,274
      Changes in:
       Receivables                                                    0             27,682
       Advances and prepayments                                  5,120              22,125
      Accounts payable                                        (681,080)           477,753
       Accrued payroll and benefits                            236,174            122,379
      Funds held in escrow                                    (135,318)          (128,315)
      Deposits                                                    (709)            (30 /515)
      Obligations under capital lease                           46,758                    0
       Net cash provided by operating activities        $      496,556     $    3,078,233

          The accompanying notes are an integral part of these financial statements.




                                                 4
                    UNITED STATES INTERNATIONAL TRADE COMMISSION
                             Statements of Reconciliation to Budget
                      For the Years Ended September 30, 1994 and 1993


                                                              1994            1993

Relation of expenses to outlays

      Expenses                                        $ 42,546,177       $ 41,905,525
      Adjustments to expenses
       Capital expenditures                                 211,760          1,319,274
       Transactions excluded from budget reports             (10,219)          247,741
      Changes in:
       Receivables                                                 0           (27,682)
       Advances and prepayments                               (5,120)          (22,125)
       Accounts payable                                     681,080           (477,753)
       Accrued payroll and benefits                        (236,174)          (122,379)
       Obligations under capital lease                       46,758                    0

      Net outlays, per budget report                  $ 43,234,262       $ 42,822,601

Relation of obligations to outlays

      Obligations incurred                            $ 43,589,985       $ 45,151,902
      Fund balances with U.S. Treasury,
       beginning of year                                  9,776,470          8,017,511
      Fund balances with U.S. Treasury,
       end of year                                      (10,014,508)        (9,776,470)
      Adjustments to expired accounts                      (117.685)          (570,342)

      Net outlays, per budget report                  $ 43.234,262       $ 42,822,601




          The accompanying notes are an integral part of these financial statements.




                                              5
                     UNITED STATES INTERNATIONAL TRADE COMMISSION
                                Notes to Financial Statements
                               September 30, 1994 and 1993


NOTE 1. Organization

           Background and mission - The United States International Trade Commission (USITC) is
           an independent agency of the executive branch of the U.S. Government created by an
           act of Congress. USITC is headed by six commissioners, appointed by the President and
           confirmed by the U.S. Senate for nine-year terms. The President designates the
           chairman and vice chairman, both of whom each serve two-year terms.

           USITC conducts investigations and reports findings relating to imports and the effect of
           imports on industry, the effect of foreign subsidies on the sale of imports, unfair import
           practices, and the effect of agricultural imports on programs of the U.S. Department of
           Agriculture. USITC advises the President on the probable economic effect of proposed
           trade agreements with foreign countries. USITC also conducts comprehensive studies
           and provides reports on issues relating to international trade and economic policy matters
           on behalf of both the Congress and President.

           Financing sources - USITC receives annual funding for operations from appropriations.
           Appropriations are recognized as revenue and "expensed" when related operating
           expenses are incurred. Differences between appropriations received and expensed are
           included in unexpended appropriations.


NO TE 2.   Summary of Significant A ccounting Policies

           The following is a summary of significant accounting policies:

           Basis of accounting - USITC's financial statements are presented on the accrual basis of
           accounting and in accordance with Title 2, GA 0 Policy and Procedures Manual for
           Guidance of Federal Agencies, which is substantially equivalent to generally accepted
           accounting principles. USITC's fiscal year is October 1, to September 30.

           Appropriations - Congress appropriated $43,500,000 and $44,852,000 to USITC for
           general operations for fiscal years 1994 and 1993, respectively.  Congress has
           appropriated $42,500,000 to USITC for fiscal year 1995.

           Fund balances with the U.S. Treasury - Fund balances with the U.S. Treasury represent
           appropriated funds in the custody of the U.S. Treasury and are available for payment of
           USITC obligations. USITC's fund balances are carried forward until goods or services are
           received and payment is made, or until such time as funds are deobligated.

           Advances and prepayments - Advances and prepayments consist of employee travel
           advances and certain miscellaneous prepayments.




                                                 6
                   UNITED STATES INTERNATIONAL TRADE COMMISSION
                              Notes to Financial Statements
                             September 30 1994 and 1993
                                               I




NOTE 2. Summary of Significant Accounting Policies (continued)

         Furniture, equipment and leasehold improvements - As more fully disclosed under Note
         3, furniture and equipment additions are recorded at cost with a corresponding entry to
         invested capital. Furniture and equipment which have been transferred to USITC from
         other Federal agencies are recorded at original cost.            The costs of leasehold
         improvements performed by the General Services Administration (GSA), but financed by
         USITC, are capitalized. Assets are carried at original cost until USITC disposes of them.
         It is the policy of USITC not to depreciate assets because they are construed to be non-
         revenue producing in nature.

         Leases - As more fully disclosed in Note 6, USITC leases its office and storage facilities
         under agreements with the GSA.

         Accrued unfunded annual/eave - Annual leave is accrued as it is earned, although it is
         not funded until it is utilized by employees. Sick, compensatory and certain other types
         of leave are not accrued and are expensed when utilized by the employee.

         Funds held in escrow - As more fully disclosed under Note 4, funds held in escrow
         consist of bonds held in escrow as the result of an investigation.

         Deposits - Deposits consist of miscellaneous receipts held in trust for the U.S. Treasury
         or respondents.

         Invested capital - Invested capital represents U. S. Government appropriations invested
         in furniture, equipment, and leasehold improvements, net of the accrued unfunded annual
         leave and obligations under capital lease.

         Intergovernmental activities - USITC records and reports only those Government-wide
         financial matters for which it is responsible and identifies only those financial matters
         with the department or agency that USITC has been granted budget authority and
         resources to manage.




                                                   7
                   UNITED STATES INTERNATIONAL TRADE COMMISSION
                              Notes to Financial Statements
                             September 30, 1994 and 1993


NOTE 3.   Furniture, Equipment and Leasehold Improvements

          Furniture, equipment and leasehold improvements are recorded at cost and consist of the
          following:
                                                            September 30


          Furniture and equipment                   $ 4,903,732         $ 4,691,972
          Equipment under capital lease                 275,945            275,945
          Leasehold improvements                      2.440.674          2.440.674

                                                    $ 7,620,351        $ 7.408,591



NOTE 4. Funds Held in Escrow

          Funds held in escrow consist of bonds posted by respondents to USITC actions as a
          result of investigations on unfair importing practices into the United States. The bonds
          are being held in escrow pending the outcome of legal proceedings. Bonds refunded to
          Treasury or respondents during fiscal years 1994 and 1993, totalled $135,318 and
          $131,741, respectrvelv.


NOTE 5. Net Position

          Unexpended appropriations include approximately $1,423,604 and $',596,529 of
          unobligated balances as of September 30, 1994 and 1993, respectively. The amount
          of appropriations returned to the U.S. Treasury in fiscal year 1994 was $590,377, which
          represented fiscal year 1989 unexpended balance. No appropriations were returned in
          fiscal year 1993.




                                                8
                        UNITED STATES INTERNATIONAL TRADE COMMISSION
                                   Notes to Financial Statements
                                  September 30, 1994 and 1993

NOTE 5. Net Position (continued)

            The activity in the net position accounts for the fiscal years ended September 30, 1994
            and 1993 was as follows:
                                                                     Cumulative
                          Unexpended             Invested            Results of
                         Appropriations           Capital            Operations           Total

October 1, 1992          $ 6,215,730           $ 3,583,565      $        63,647    $     9,862,942

Appropriations                                                                         44,852,000
 received                 44,852,000
Appropriations used
to fund purchase of
furniture and
 equipment                (1,319,274)            1,319,274
Appropriations used
to fund operating
expenses                 (41,855,718)                               41,855,718
Appropriations
expensed                    (359,351 )                              (41,905,525)       (42,264,876)
Decrease in unfunded
leave and benefits                                107,275                                 107,275

September 30, 1993         7,533,387             5,010,114               13,840        12,557,341

Ap prop riations
 received                 43,500,000                                                   43,500,000
Appropriations used
 to fund purchase of
 furniture and
 equipment                  (211,760)             211,760
Appropriations used
 to fund operating
 expenses                142,541,057)                               42,541,057
Appropriations
 expensed                    118,546                                (42,546,177)       (42,427,631)
Increase in unfunded
 leave and benefits                                (62,626)                                (62,626)
Amortization of lease
principal                    (46,758)              46,758

September 30, 1994       $ 8,352,358       $    5,206,006       $         8,720    $ 13,567,084




                                                    9
                  UNITED STATES INTERNATIONAL TRADE COMMISSION
                             Notes to Financial Statements
                            September 30 1994 and 1993
                                             I




NOTE 6. Leasing Arrangements

        Operating Lease

        All USITC office space is leased through GSA under a cancelable ten-year operating lease
        agreement. The lease provides for amended base annual rental payments which are
        increased annually in accordance with operating cost and real estate tax escalation
        clauses. In addition, annual agreements are negotiated for other occupancy costs and
        services.

        GSA charges USITC for the cost of the lease plus a contribution to the Federal Buildings
        Fund. Lease expenses for office space during fiscal years 1994 and 1993 were
        approximately $7,705,812 and $7,517,627, respectively.

        The estimated future minimum rental payments, exclusive of escalation and other
        occupancy costs, as of September 30, 1994, is as follows:

                 September 30                Amount

                  1995                    $ 5,060,000
                  1996                       5,060,000
                  1997                       4,638,333

                                          $ 14,758,333

        Escalations paid were approximately $2,645,812 and $2,457,627 for the years ended
        September 30, 1994 and 1993, respectively. The GSA lease expires in August 1997.

        USITC also has various other annual and month-to-month leases for certain equipment
        and storage space.




                                             10
                   UNITED STATES INTERNATIONAL TRADE COMMISSION
                              Notes to Financial Statements
                             September 30, 1994 and 1993


NOTE 6. Leasing Arrangements (continued)

         Capital Lease

         USITC has entered into a lease agreement with the Xerox Corporation for docutech
         network publisher and accessories for the Publication Division. The agreement is a lease
         to ownership plan (LTOP) and provides for transfer of equipment title and ownership to
         USITC at the end of the 60-month lease period without any additional payment.

         Capital Lease Obligation - Future payments due are as follows:




          Fiscal year 1994                           $         o      $     67,145
          Fiscal year 1995                                67,144            67,144
          Fiscal year 1996                                67,144            67,144
          Fiscal year 1997                                67,144            67,144
          Fiscal year 1998                                67,135            67.135
        Total future lease payments                      268,567

          Less: imputed interest                          39,380            59,767
        Total obligations under capital lease            229,187

           Less: current obligations                      50,638            46,758

        Long-term obligations                        $   178,549      $   229.187


NOTE 7. Employee Benefit Programs

        Retirement - Substantially all of USITC's employees are covered under either the Civil
        Service Retirement System (CSRS) or the Federal Employees Retirement System (FERS).
        For employees covered under CSRS (those employees hired prior to January 1, 1984),
        USITC withholds approximately 7 percent of each employee's salary and contributes a
        matching amount to the fund. CSRS covered employees do not have FICA withholdings
        and, thus, are not fully eligible to receive Social Security benefits. For employees
        covered under FERS (generally those employees hired on or after January 1, 1984),
        USITC withholds, in addition to FICA withholdings, approximately 0.8 percent of
        employee gross earnings and matches such withholdings with a 7 percent contribution.




                                                11
                    UNITED STATES INTERNATIONAL TRADE COMMISSION
                               Notes to Finan cial Statements
                              September 30, 1994 and 1993




NOTE 7. Employee Benefit Programs (continued)

          Under FERS, employees also receive retirement benefits from Social Security and, if
          applicable, benefits from a defined contribution plan (thrift). Under the thrift plan, an
          employee may contribute (tax deferred) up to 10 percent of salary to an investment fund.
          USITC then matches this amount up to 5 percent. Those employees which elected to
          remain under CSRS after January 1, 1984, continue to receive benefits in place and may
          also contribute (tax deferred) up to 5 percent of their salary to the thrift plan, but with
          no matching amount contributed by USITC.

          CSRS and FERS are multi-employer plans. Although USITC funds a portion of pension
          benefits relating to its employees, and provides for the necessary payroll withholdings,
          it does not maintain or report information with respect to the assets of the plans, nor
          does it report actuarial data with respect to accumulated plan benefits or the unfunded
          pension liability relative to its employees. The reporting of such amounts is the
          responsibility of the U.S. Office of Personnel Management.

          USITC's contribution to both plans was approximately $2,304,118 and $2,259,821 for
          the years ended September 30, 1994 and 1993, respectively.

          Accrued leave - USITC's employees are entitled to accrue annual leave (vacation and
          personal time) and accumulate sick time based on their years of service. Annual leave
          may be accrued up to 240 hours per employee, for substantially all employees, and is
          payable based on the employee's annual salary upon separation. Under certain
          circumstances, Senior Executive Service personnel and employees affected by exigencies
          of the public business may accrue more than 240 hours of annual leave. There is no
          maximum limit on sick time which may be accumulated; however, any unused sick time
          is not paid to employees upon separation.

          Health benefits and life insurance - USITC, through the federal government, offers health
          and life insurance plans, under which premium costs for health care are shared between
          USITC and the employees. The substantial portion of life insurance premiums are paid
          by employees. Amounts paid by USITC for health care were approximately $1,042,963
          and $1,014,467 for the years ended September 30, 1994 and 1993, respectively.


NOTE 8.   Commitments and Contingencies

          Committed obligations - USITC is committed under certain obligations incurred for goods
          or services ordered but not yet received. Aggregate orders not received at September
          30, 1994 and 1993, reflected as part of unexpended appropriations in the accompanying
          financial statements, amounted to approximately $1,423,604 and $1,596,529,
          respectively.




                                                12
                    UNITED STATES INTERNATIONAL TRADE COMMISSION
                               Notes to Financial Statements
                              September 30, 1994 and 1993


NOTE 8.   Commitments and Contingencies (continued)

          Unpaid compensatory time - USITC policy provides for the accumulation of compensatory
          time for employees for overtime hours worked. The policy presently does not address
          USITC's liability payable to an employee for compensatory time upon separation. Legal
          counsel recently determined that certain separated employees will be entitled to
          reimbursement for their compensatory time at the time of their departure. In this regard,
          the liability relating to this matter is not considered by management to be material and
          has not been reported in the financial statements.

          Monetary penalty receivable - During fiscal year 1992, USITC was awarded a claim
          against a Canadian firm for patent infringement violations on goods imported into the
          United States. A monetary penalty was assessed at $100,000 of which $62,500 was
          outstanding as of September 30, 1993.        The Canadian firm has since filed for
          bankruptcy protection under Canadian law. The remaining $62,500 has not been
          recorded as a receivable, as collection of any future monies against this claim is
          uncertain. Consequentlv. this amount was written off in fiscal year 1993.

          Legal- US1TC is a party in various administrative proceedings, legal actions, and claims
          brought by or against it. In the opinion of USITC management and legal counsel, the
          ultimate resolution of these proceedinqs, actions and claims will not materially affect the
          financial position or the operating results of USITC.

          Certain legal matters to which USITC may be a named party are administered by USITC
          and, in some instances, litigated by other Federal agencies, and amounts to be paid
          under any decision, settlement or award pertaining thereto are generally funded by those
          agencies. In most cases, tort claims, including personal injury claims, are administered,
          approved and resolved by the U.S. Department of Justice, and any amounts, for awards
          in excess of $2,500, necessary for resolution are obtained from a special fund
          maintained by the U.S. Treasury. Legal issues brought by employees of USITC are
          administered by the U.S. Department of Labor. The cost of administering, litigating, and
          resolving these legal matters, including payment of any damages, are not allocated to
          other Federal agencies.




                                                13
                                                                CERTIFIED PUBLIC ACCOUNTANTS
                                                                AND MANAGEMENT CONSULTANTS


                              BROWN & COMPANY                                                   ..

                           Independent Auditor's Report on Compliance




The Commissioners
United States International Trade Commission

We have audited the financial statements of the United States International Trade Commission as
of and for the years ended September 3D, 1994 and 1993, and have issued our report thereon
dated April 7, 1995.

We conducted our audits in accordance with generally accepted auditing standards and Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

Compliance with laws and regulations applicable to the United States International Trade
Commission is the responsibility of the Commission's management. As part of obtaining reasonable
assurance about whether the financial statements are free of material misstatement, we performed
tests of the Commission's compliance with certain provisions of applicable laws and regulations.
However, our objective was not to provide an opinion on overall compliance with such provisions.
Accordingly, we do not express such an opinion.

The results of our tests indicate that, with respect to the items tested, the United States
International Commission complied, in all material respects, with the provisions referred to in the
preceding paragraph. With respect to items not tested, nothing came to our attention that caused
us to believe that the United States International Trade Commission had not complied, in all
material respects, with those provisions.

This report is intended for the information of the Commissioners and management of the United
States International Trade Commission. This restriction is not intended to limit the distribution of
this report, which is a matter of public record.




Arlington, Va
April 7, 1995




    2300 CLARENDON BLVD • SillTE 1100 • ARLINGTON, VA 22201 • (703) 522·0800 • FAX: (703) 522-0806
                                                 14
                                                                    CERTIFIED PUBLIC ACCOUNTANTS
                                                                    AND MANAGEMENT CONSULTANTS


                                  BROWN & COMPANY                                                   ..

                         Independent Auditor" s Report the Internal Control




The Commissioners
United States International Trade Commission


We have audited the financial statements of the United States International trade Commission as
of and for the years ended September 3D, 1994 and 1993, and have issued our report thereon
dated April 7, 1995.

We conducted our audits in accordance with generally accepted auditing standards and Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

In planning and performing our audits of the financial statements of the United States International
Trade Commission for the years ended September 30, 1994 and 1993, we considered its internal
control structure in order to determine our auditing procedures for the purpose of expressing our
opinion on the financial statements and not to provide assurance on the internal control structure.

The management of the United States International Trade Commission is responsible for
establishing and maintaining an internal control structure. In fulfilling this responsibility, estimates
and judgments by management are required to assess the expected benefits and related costs of
internal control structure policies and procedures. The objectives of an internal control structure
are to provide management with reasonable, but not absolute, assurance that assets are
safeguarded against loss from unauthorized use or disposition, and that transactions-are executed
in accordance with management's authorization and recorded properly to permit the preparation
of financial statements in accordance with generally accepted accounting principles. Because of
inherent limitations in any internal control structure, errors or irregularities may nevertheless occur
and not be detected. Also, projection of any evaluation of the structure to future periods is subject
to the risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.

For purposes of this report, we have classified the significant internal control structure policies and
procedures in the following categories:

     ·   Expenditures
     ·   Financial reporting
     ·   Property and equipment
     ·   Payroll
     ·   Treasury/cash




     2300 CLARENDON BLVD • SUITE 1100 • ARLINGTON, VA 22201 • (703) 522-0800 • FAX: (703) 522-0806
                                                  1 r)
For all of the internal control structure categories listed above, we obtained an understanding of
the design of relevant policies and procedures and whether they have been placed in operation, and
we assessed control risk.

Our consideration of the internal control structure would not necessarily disclose all matters in the
internal control structure that might be material weaknesses under standards established by the
American Institute of Certified Public Accountants. A material weakness is a reportable condition
in which the design or operation of the specific internal control structure elements does not reduce
to a relatively low level the risk that errors or irregularities in amounts that would be material to the
financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. We noted no matters
involving the internal control structure and its operations that we consider to be material
weaknesses as defined above.

However, we noted certain matters involving the internal control structure and its operation that
we have reported to the management of the United States International Trade Commission in a
separate letter dated April 7, 1995.

This report is intended for the information and use of the Commissioners and the management of
the United States International Trade Commission. This restriction is not Intended to limit the
distribution of this report, which is a matter of public record.




Arlington, Va.
April 7, 1995




                                                   16
                                                              CERTIFIED PUBLIC ACCOUNTANTS
                                                              AND MANAGEMENT CONSULTANTS


                           BROWN & COMPANY                                                     •




  The Commissioners
  United States International Trade Commission
  Washington, D.C. 20436

  In planning and performing our audits of the financial statements of the United States
  International Trade Commission (USITC) for the years ended September 30, 1994 and
  1993, we noted certain areas where we believe improvement is warranted in
  operating policies and procedures. The noted conditions are summarized as follows:


  A.     CAPITALIZATION OF PURCHASE DISCOUNTS

  The Finance Division initially records capitalized fixed assets into the Federal Financial
  System at the net amount of the purchase order. A journal voucher is then prepared
  to capitalize the purchase discount. This method of accounting for fixed assets
  resulted in an overstatement of $205,858 in the equipment account for fiscal year
  1993.

  GAO Policy and Procedures Manual for Guidance of Federal Aqencies. Title 2 --
  Accounting, provides that, "all assets shall be recorded at cost, net of any purchase
  discounts taken. 11




  We recommend that the Chief of the Finance Division capitalize all fixed assets in
  accordance with the guidelines set forth in Title 2 under" Acquisition Cost of Assets."

  Commission Comments

  The Finance Division will capitalize all fixed assets at cost, net of any purchase
  discounts taken. The adjustment of $205,858 will be reflected in the Commission's
  FY1995 financial records.

  B.     DISPOSALS OF FIXED ASSETS

  During our review of fixed assets, we selected 20 equipment items for inspection.
  Our inspections disclosed that 4 of the 20 equipment items selected had been traded
  in for new equipment. However, the items were included on the fixed asset listing as
  of September 30, 1993.




2300 CLARENDON BLVD • SUITE 1100 • ARLINGTON, VA 22201 • (703) 522-0800 • FAX: (703) 522-0806
                                             17
USITC Directive 3550.1 (superseded by USITC Directive 3550.2, effective May 3,
1995) -Property Management Policies and Procedures, requires the Property
Management Officer to maintain a "fixed asset" inventory for financial accounting
purposes and annually reconciling this inventory with the Office of Finance and
Budget's finance and accounting records.

We recommend that the Property Management Officer follow the guidelines set forth
in USITC Directive 3550.1 (superseded by USITC Directive 3550.2, effective May 3,
1995) in order to keep an accurate and updated listing of all assigned property.

Commission Comments

The Property Management Officer will notify the Chief of the Finance Division of any
fixed assets that should be removed from the fixed asset list. Upon notification, the
Finance Division Chief will record the removal of these items in the Commission's
financial records as of the appropriate fiscal year.

C.     OVERSTATEMENT OF ACCOUNTS PAYABLE AT FISCAL YEAR END

The Finance Division expenses all invoices received prior to closing the general ledger
for the fiscal year and recognizes the invoiced amounts as accounts payable.
However, our review of 100 invoices and the related receiving reports and shipping
dates for fiscal years 1994 and 1993 disclosed that the goods and services for 15
invoices were received after the fiscal year end and, therefore, should not have been
expensed or recognized as liabilities. This practice resulted in an overstatement of
accounts payable in the amount of $11,420 for fiscal year 1994 and $144,511 for
fiscal year 1993.

The Revised Standard Operating Procedures, Section VIII-1, states that nail unpaid
invoices received prior to fiscal year end or invoices received subsequent to the fiscal
year end until the day the accounting records are closed, which relate to services
rendered or goods received prior to the fiscal year end, are recorded as accounts
payable."

We recommend that the Chief of the Finance Division establish a policy to examine
invoices received at fiscal year end for the date of receipt of goods or services to
determine the appropriate fiscal year in which to charge the invoice.

Commission Comments

The Chief of the Finance Division will instruct the accounting technicians to examine
all invoices received at fiscal year end for the date of receipt of goods or services so
that transactions are recorded in the appropriate fiscal yea r.




                                          18
D.     UNDOCUMENTED RECEIPT OF GOODS AND SERVICES

During our review of accounts payable and tests of disbursements, we noted that 14
out of 100 selected invoices bore no indication that the goods or services were
actually received. The Finance Division relies on Cost Center Managers or their
designees to provide information relative to if and when the goods or services were
received. The date of receipt is necessary for Finance to make an accurate
determination as to the proper fiscal year in which to record the transactions.
Certification provides assurance that goods and services were provided in accordance
with purchase orders, contracts, or other executed agreements.

Section 111-4 of the Revised Standard Operating Procedures, requires that the Finance
Division receive either a certification by an authorized USITC representative indicating
when the goods and services were received or an actual receiving report which is
signed by an authorized USITC representative before processing an invoice for
payment.

We recommend that the Chief of the Finance Division notify Cost Center Managers
that they or their designees must sign and forward all receiving reports to the Finance
Division immediately upon receipt of goods, and that Finance personnel will pay only
those invoices for which they have a signed receiving report or a certification that the
goods or services were received and were satisfactory.

Commission Comments

The Finance Division will issue a memorandum to Cost Center Managers informing
them that only those invoices with a signed receiving report or a certification that the
goods or services were received and were satisfactory will be paid.

This report is intended for the information of the Commissioners and management of
the United States International Trade Commission. This restriction is not intended to
limit the distribution of this report, which is a matter of public record.




Arlington, VA
April 7, 1995




                                          19
                                                         Attachment




                    1:.'.\.5; I1XCTCJS. DC 20.J3G
June 28, 1995



TO:         Chairman Watson

FROM:      Ysteve KcLaughlin J-rJ~J~
           ~Acting Director, Offfce of Administration

SUBJECT:    Approval of Administration's Comments of the
            :Inspector General's Draft Audit Report: Audit
            of the USZTC Financial Statements for Piscal
            Years 1994 and 1993

On May 5, 1995, the ZDspector General submitted copies of
the subject audit to each Commissioner by memorandum (ZG-
S-030). The ~G also requested Administration to review
the draft audit report and make comments if necessary. In
accordance with Section 11 of USITC Directive #1701,
-Audit Policies and Procedures·, the Office of
Administration has sent its comments in draft to the
Commissioners, other than you as Chairman, for review. No
comments were received fram Commissioners.

The Office of Administration concurs with the Inspector
General's findings and suggestions. ~ accordance with
Section 11 of US~TC Directive #1701, submitted herewith
are Administration's comments on the suggestions and a
corrective action plan for your approval before they are
sent to the :Inspector General. Since the ZG has set a
deadl~e of June 29, 1995, for receiv~g a final response,
it would be appreciated if you could indicate your
approval, or modification, by the close of business
Wednesday, June 28, 1995.


Approved:    ~

Hodify as
follows:
Approved:     /
Modify as follows:


          J&t-fUJ~
        /Chairman                               Date


ATTACHMENT

co:   Director, Office of Finance and Budget
      Director, Office of Management Services
      Inspector General w/o attachment




                             2
       ADMDTl:STRA'l':IOH' S RESPON'SB TO ~ DlZAPT ADD:I-r :REPORT
               OF 7'BE USITC FDTAlTC:IAL STATEllERTS FOR
                     PISCAL YEARS 1994 AND 1993


A.   CAPIT.ALIZAT:IOH OF PURCHaSE D:ISComrrS

     Finding/Suggestion

     The Pinance Division (ED) initially records capitalized
     fixed assets ~to the Pederal F~cia1 System at the net
     amount of the purchase order. A journal voucher is then
     prepared to capitalize the purchase discount. This method
     of accounting for fixed assets resulted in an overstatement
     of $205,858 in the equipment account for fiscal year 1993.

     GAO Policy and Procedures Manual for Guidance of Federal
     Agencies, Title 2--Account~g, provides that -all assets
     shall be recorded at cost, net of any purchase discounts
     taken. -
     We recommend that the P'D capitalize all fixed assets in
     accordance with the guidelines set forth in Title 2 under
     -Acquisition Cost of Assets.-

RESPONSE:   AGREE.

The FD will capitalize all fixed assets at cost, net of any
purchase discounts taken which is in accordance with guidelines
set forth in Title 2. The financial records for PY95 will
reflect the $205,858 adjustment.

TARGET COMPLETION DATE:    July 31, 1995.



B.   DISPOSALS OF PIXED ASSETS

     Finding/Suggestion

     During our review of fixed assets, we selected 20 equipment
     items for inspection. Our inspections disclosed that 4 of
     the 20 equipment items selected had been traded in for new
     equipment. However, the items were inc1uded on the fixed
     asset listing as of September 30, 1993.

     US:ITC Directive 3550.1 - Property Management Policies and
     Procedures, requires the Property Management Office (PMD) to
     maintain a -fixed asset- inventory for financial accounting
     purposes and annuall.y reconci1ing this inventory with the
     Office of Finance and Budget1s (OPB) finance and accounting
     records.

                                   1
D.   UNDOCtDIERTED :RECEIPT OF GOODS A!lD SERVICES

     P±nding/Suggestion

     During our review of accounts payable and tests of
     disbursements, we noted that 14 out of 100 se1ected invoices
     bore no indication that the goods or services were actua11y
     received. The P'D relies on Cost Center JlaDagers or their
     designees to provide infoxmation rel.ative to if and when the
     goods or services were received. The date of receipt is .
     necessary for P~ce to make an accurate det~tion as
     to the proper fiscal year in .Meb to record the
     transactions. Certification provides assurance that goods
     and services .ere provided in accordance with purchase
     orders, contracts, or other executed agreements.

     Section III-4 of the Revised Standard Operating Procedures,
     requires that the P'D receive either a certification by an
     authorized USITC representative indicating when the goods
     and services .ere received or an actual receiving report
     which is signed by an authorized USITC representative before
     processing an invoice for payment.

     We recommend that Cost Center Managers or their designees
     sign and forward a11 receiving reports to the FD ~ediately
     upon receipt of goods. We further recQllllllend that the
     Finance personnel pay only those invoices for which they
     have a signed receiv~g report or a certification that the
     goods or services were received and were satisfactory.

RESPONSE:   AGREE.

The FD wi11 issue a memorandum to Cost Center Managers infoxming
them that the acceptance date for any goods or services received
satisfactorily is required when signing invoices. The memorandum
will also state that the PO wi11 only pay those invoices that
have a signed receiving report or a certification with the date
of receipt that the goods or services ware received and were
satisfactory.

As a clarification to procedures, Cost" Center Managers sign the
packaging slip .hich supports the receiving report. The
receiv~g report is signed and forwarded to P'D by Office of
Management Services, Facil.ities Support Division.

TARGET COKPLETIOH DATE:   July 31, 1995.




                                  3
